<html>
<title> - Averting All-Out War in Nagorno-Karabakh:The Role of the U.S. and OSCE</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






115th Congress                                                             Printed for the use of the
1st Session                                         Commission on Security and Cooperation in Europe
_____________________________________________________________________________________________________

 
                             Averting All-Out War in  
                             
                         Nagorno-Karabakh:The Role of 
                         
                              the U.S. and OSCE

 
                                                 





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                                       October 18, 2017
                                       
                                       
                                       
                                       
                                     Briefing  of the

                     Commission on Security and Cooperation in Europe
__________________________________________________________________________________________

                                   Washington: 2018





                   Commission on Security and Cooperation in Europe
                            234 Ford House Office Building
                               Washington, DC 20515
                                 202-225-1901
                             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9888989ebb969a9297d593948e889ed59c948d">[email&#160;protected]</a>
                            http://www.csce.gov
                               @HelsinkiComm
                                                          
                                                          
                                                          
                                                          

                            Legislative Branch Commissioners

              HOUSE                                   SENATE
CHRISTOPHER H. SMITH, New Jersey             ROGER WICKER, Mississippi,
          Co-Chairman                        Chairman
ALCEE L. HASTINGS, Florida                   BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                  JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                    CORY GARDNER, Colorado
STEVE COHEN, Tennessee                       MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina               JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                     THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                    TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                        SHELDON WHITEHOUSE, Rhode Island
                        
         
           
          
          
                          Executive Branch Commissioners
          
                               DEPARTMENT OF STATE
	                       DEPARTMENT OF DEFENSE
                               DEPARTMENT OF COMMERCE
          
                                      (II)
          

                                        



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.

ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


Averting All-Out War in Nagorno-Karabakh: The Role of the U.S. and OSCE


                            October 18, 2017


                                                                          Page
                              PARTICIPANTS

    Alex Tiersky, Policy Advisor, Commission for Security and 
Cooperation in Europe .......................................   1

    Magdalena Grono, Europe & Central Asia Program Director, 
International Crisis Group .................................    3

    Ambassador Carey Cavanaugh, Professor of Diplomacy and Conflict 
Resolution, University of Kentucky; Former U.S. Co-Chair of the OSCE 
Minsk Group (1999-2001) ...................................      7

    Ambassador James Warlick, Partner and Senior Policy Advisor, Egorov 
Puginsky Afanasiev & Partners; Former U.S. Co-Chair of the OSCE Minsk 
Group (2013-2016) ........................................       12



                            (IV)


Averting All-Out War in Nagorno-Karabakh: The Role of the U.S. and OSCE
                              ----------                              

                            October 18, 2017
                            
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE
                             Washington,DC


    The briefing was held at 2:02 p.m. in Room 188, Russell Senate 
Office Building, Washington, DC, Alex Tiersky, Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Alex Tiersky, Policy Advisor, Commission for 
Security and Cooperation in Europe; Magdalena Grono, Europe & Central 
Asia Program Director, International Crisis Group; Ambassador Carey 
Cavanaugh, Professor of Diplomacy and Conflict Resolution, University 
of Kentucky; Former U.S. Co-Chair of the OSCE Minsk Group 
(1999-2001); and Ambassador James Warlick, Partner and Senior Policy 
Advisor, Egorov Puginsky Afanasiev & Partners; Former U.S. Co-Chair of 
the OSCE Minsk Group 
(2013-2016).

    Mr. Tiersky. Good afternoon, everybody. My name is Alex Tiersky. On 
behalf of the U.S. Helsinki's Commission's Chairman, Senator Roger 
Wicker, and our Co-Chairman, Congressman Chris Smith, I'd like to 
welcome everybody to today's briefing, which has been titled, 
``Averting All-Out War in Nagorno-Karabakh: The Role of the United 
States and the OSCE.''
    Last year the conflict surrounding Nagorno-Karabakh saw its worst 
outbreak of violence in more than two decades. The so-called Four Day 
War in April 2016 claimed approximately 200 lives and demonstrated that 
this conflict, which has persisted in a state of no war and no peace 
since the 1994 ceasefire, is not ``frozen'' at all. Instead, the line 
of contact separating the parties sees numerous ceasefire violations 
annually. Each one risks igniting a larger-scale conflict that could 
draw in major regional players, such as Russia, Turkey, and Iran.
    Many of you know that since 1997 the United States, France, and 
Russia have co-chaired the Minsk Group of the Organization for Security 
and Cooperation in Europe, the OSCE. This is the principal 
international mechanism aimed at reaching a negotiated solution to the 
conflict. The fragility of the Nagorno-Karabakh ceasefire underscores 
the importance of United States engagement in this Minsk Group process.
    Under its mandate to monitor compliance with the articles of the 
Helsinki Final Act of 1975, the U.S. Helsinki Commission has 
demonstrated a long-term interest in monitoring this conflict, and 
exploring strategies for its sustainable resolution. For example, most 
recently the Commission published in June of 2017 a background report, 
which you can find at our website at www.CSCE.gov. I'm very pleased 
that today we can bring together two former United States co-chairs of 
Minsk Group process, as well as a renowned independent expert on the 
conflict, to assess the current state of this issue, of the Minsk Group 
format, and prospects for achieving a lasting peace. Above all, this 
discussion is intended to focus on the past, present, and future of 
relevant U.S. policy.
    Let me briefly introduce each of our speakers today. You should 
know that their extremely impressive biographies are available in full 
in the packets that you've gotten. We will first hear from Magdalena 
Grono, to my right. She'll be providing us with a review of the 
conflict itself and the stakes involved. Magdalena directs the Europe 
and Central Asia Program at the International Crisis Group. Besides 
having lived in the Caucasus for nearly a decade, she has lent her 
expertise on the region to an impressively broad range of governmental 
and nongovernmental organizations seeking to make a positive difference 
in the region. And I just want to say, personally, how much all of us 
who work on issues of conflict and peace rely on the Crisis Group's 
reporting and the quality of that reporting, which I commend to all of 
you. We're very grateful Magdalena could join us today from Brussels.
    Our second speaker will be Ambassador Carey Cavanaugh to my left, 
whose brilliant article in the journal Security and Human Rights on the 
OSCE and the Nagorno-Karabakh peace process was in many ways the origin 
of this briefing. He'll provide us with something of a historical 
overview of the international engagement to address this conflict, of 
course discussing the Minsk Group co-chair process that was the focus 
of his recent paper. Ambassador Cavanaugh is truly the embodiment of a 
scholar practitioner, as he currently serves as a professor of 
diplomacy and conflict resolution at the University of Kentucky. In his 
earlier career as a Foreign Service Officer at the Department of State 
he held a great number of extremely impressive posts but, of course, 
none of greater interest to us today than his service as the U.S. OSCE 
Minsk Group co-chair from 1999 to 2001, when he managed the Key West 
peace talks between the three co-chairs and the presidents of Armenia 
and Azerbaijan.
    Our third speaker will be Ambassador James Warlick. He will 
describe his views on recent developments and diplomatic initiatives 
and on prospects for any negotiated settlement going forward. 
Ambassador Warlick is currently a partner and senior policy advisor at 
the leading Russian law firm of Egorov, Puginsky, Afanasiev & Partners. 
But of course, for our purposes, more importantly, he is, of course, 
the most recent full-term U.S. co-chair of the OSCE Minsk Group, 
serving from 2013 to 2016. I couldn't begin to summarize Ambassador 
Warlick's extremely impressive diplomatic career in the Foreign 
Service, so let me only here thank him publicly for the opportunity to 
have worked with him as I began my own career in foreign affairs many 
years ago.
    Ladies and gentlemen, I very much look forward to our discussion on 
what is, like so many other topics that the Commission tackles, a 
subject on which views can differ quite strongly. We will have an 
opportunity for input from the members of our distinguished audience. 
And I'll look forward to offering the floor to the audience after I've 
had a chance to ask a few of my own questions as the moderator. I will 
remind everyone, lastly, that this event is streaming live on the 
Helsinki Commission's Facebook page. If you are tweeting about this 
event, please feel free to use our handle @HelsinkiComm. And the video 
and unofficial transcript of this event will be available on our 
website, probably within the next few days.
    So let me first turn the floor over to Magdalena Grono. Thank you 
very much.
    Ms. Grono. Thank you very much, Alex. Thank you very much for the 
kind introduction. Thank you also for the invitation. It's an honor to 
be here, and to also be on such a distinguished panel.
    I've been asked to set the stage and say a little about the 
background of the conflict and the current state of play. I would 
probably start by saying that other than the conflict in eastern 
Ukraine and the PKK conflict in Turkey, I think that Nagorno-Karabakh 
is, indeed, the deadliest conflict currently in Europe. It is also 
among the most intractable and risky. An escalatory trend has been 
evident in the region since the past five years or so, possibly even 
longer. Concentrations of weapons in the region are among the highest 
in Europe. And the line of contact is among the most militarized in the 
world.
    And of course, the ceasefire is basically self-regulated, with six 
unarmed OSCE monitors conducting pre-agreed visits. The settlement 
process has been stalled, though this Monday's summit between 
Presidents Aliyev and Sargsyan is a long-awaited opening for the first 
time since over a year. The April 2016 escalation that Alex has already 
mentioned has shown in no uncertain terms that the conflict has a 
serious potential to flare up, with possible significant humanitarian 
consequences. That escalation galvanized, for a short while, the 
settlement process, but also highlighted the entrenched zero-sum 
positions the parties espouse.
    I would say that the Nagorno-Karabakh conflict is also quite so 
dangerous because of its possible regional implications. It has the 
potential to draw regional powers--Russia and Turkey--into a direct 
confrontation, given their respective military alliances with Armenia 
and Azerbaijan. If an escalation were to occur, though, it could also 
have broader regional implications. Here, I'm thinking mainly of Iran. 
After all, the 2016 escalation saw shells land on Iranian territory. 
But also Georgia, whose Armenian and Azerbaijani ethnic minorities, of 
course, found themselves in 2016 drawn in two different directions--
although this did not necessarily have a broad resonance in the region. 
Lastly, of course, an escalation that could occur in the region would 
be very close to the EU's borders. And living in Brussels, I must say 
that the EU takes that very seriously.
    I have been asked to set the stage. And I thought I would say a 
couple of words on the background and the basic parameters of the 
conflict, and then a few words on the state of play today including, 
indeed, the risks that had fueled the 2016 escalation and that, on many 
counts, are still in place today and, in some ways, possibly have even 
exacerbated since last year. I hope we can then address policy 
recommendations and options in the discussion. I think that that 
probably would be the best way to go.
    Firstly, on the background and the basic parameters of the 
conflict. Of course, the conflict's roots go back decades, arguably 
centuries. But the parameters of the current dispute were formed as the 
USSR began to fray in the late 1980s. Nationalist sentiments swelled 
and led to violence. By 1991-92, moves by the majority Armenian 
population of the then-Nagorno-Karabakh autonomous region of Azerbaijan 
to break away from Baku's control had taken on the character of a full-
scale war between Armenia and Azerbaijani sides. By 1992, the CSCE, 
later the OSCE, sought to convene a conference in Minsk to seek a 
peaceful solution. This is what then, of course, developed, by 1994-
1995, into the OSCE Minsk Group that in 1997 started to be co-chaired 
by, indeed, the three co-chairs: the United States, Russia, and France.
    In 1994, when the ceasefire was reached, Azerbaijan lost control of 
Nagorno-Karabakh, as well as all or part of seven districts surrounding 
Nagorno-Karabakh. Thanks to the topography, of course, positions in 
these areas have given Armenian forces an important security advantage. 
The conflict claimed 20,000 casualties and over 1 million people were 
displaced. Over 700,000 of those were Azerbaijanis who were displaced 
from Karabakh and the surrounding districts, mainly two districts. 
Communities have been torn apart and people-to-people contacts were, 
indeed, severed. The conflict also resulted in closures of Armenian and 
Azerbaijani and Armenian and Turkish borders, leaving Armenia connected 
to the outside world only by Georgia and Iran. Nagorno-Karabakh 
unilaterally declared independence, a move that has not been recognized 
by any state, not even Armenia, though there are, of course, deep links 
between the two.
    Now, in terms of basic positions, I of course realize that it's 
very difficult to sum up the basic positions, but let me give it a try. 
In many ways, of course, the conflict is a classical clash between the 
principles of territorial integrity and self-determination. And this is 
where it squarely falls in the mandate of the Helsinki Commission. 
Azerbaijan, therefore, insists on territorial integrity, claiming 
Armenian forces occupy up to 20 percent of its territory, although 
independent experts assess this at about 14 percent. For Baku, it's 
essential to return under its control the districts surrounding 
Nagorno-Karabakh, and to reintegrate Karabakh itself.
    Often Baku refers to possible autonomy arrangements. To support its 
case, Baku also recalls four U.N. Security Council resolutions of 1993, 
which were adopted at the height of the fighting, calling for Armenian 
withdrawals, but that have not been implemented. Especially since 
Russia's annexation of Crimea in 2014, I would say that Baku has 
intensified its calls on the U.S. and the EU to treat the Karabakh 
conflict like they treat conflicts in Ukraine, Georgia and Moldova, 
whose territorial integrity they support unequivocally, including in 
the context of future conflict settlement options. The right of 
displaced persons to return to their homes is another key consideration 
for Azerbaijan.
    Now, if we move towards the Armenian side, of course, the Armenian 
side insists on self-determination. And we should stress here, indeed, 
the self-determination of peoples, as per the Helsinki Final Act--so 
not self-determination of communities as others suggest, arguing that 
Karabakh needs to have the possibilities to seek self-determination 
outside of Azerbaijan. Another important consideration for the Armenian 
side is, of course, security. The lands around Karabakh have, in fact, 
served as a certain security buffer. This position and the need for 
security have, I would say, strengthened with the deteriorating 
conflict dynamic of the past years.
    President Sargsyan has previously said that Agdam and the 
territories surrounding Nagorno-Karabakh was not Armenia's, but there 
are barely any constituencies in Armenia and Karabakh today that would 
support this claim. We will get back to that when we discuss the state 
of play today. The territories adjacent to Nagorno-Karabakh have also 
traditionally been an important negotiating chip. It's also worth 
mentioning, in terms of looking at the different positions, that an 
essential consideration for the Armenian side is ensuring a land 
corridor between Armenia and Karabakh.
    Now, the settlement process, led by the OSCE Minsk Group co-chairs 
from the U.S., Russia and France, is predicated on the three principles 
of the Helsinki Final Act: the non-use of force; territorial integrity; 
and self-determination of peoples. The so-called basic principles for 
the settlement of the conflict--and we will hear later from Ambassadors 
Cavanaugh and Warlick about this--that co-chairs have developed, I 
think that as seen from the outside, are a balanced formula for 
political settlement.
    In their 2007 iteration, the Madrid Principles call for--and we all 
know them, but I will reiterate--the return of territories adjacent to 
Nagorno-Karabakh to Azerbaijani control; interim status for the region 
providing guarantees for security and self-
governance; a corridor linking Armenia and Karabakh; future 
determination of the final legal status of the region through a legally 
binding expression of popular will; the right of return of all 
displaced persons; and international security arrangements, including a 
peacekeeping operation. I see these principles as providing a possible 
workable roadmap for a sustainable political settlement. And I would 
say this is something that we see in short supply in many of the other 
conflicts in the post-Soviet space.
    But of course, while the parties in principle agree to these 
principles as a basis for negotiations, in practice the principles are 
very far away from the reality that currently shapes the society and 
from discussions in these societies. We see a big disconnect there. So, 
indeed, efforts to get to an agreement have consistently failed. And 
post 2016, the parties have taken a dramatic departure from any 
compromise-based solution. The relationship between Baku and Yerevan is 
firmly anchored in a zero-sum logic. And maximalist positions have, 
indeed, gained currency after 2016.
    Here, I would like to shift a few years down the line to the state 
of play today and after 2016. And I think it's important today to 
really think through the escalation of 2016 and its lessons. The 
dynamic today is very directly shaped by that. And many factors that 
had contributed to that so-called Four Day War are still valid today. 
In fact they have even been exacerbated. I will mainly focus on two of 
those factors--sort of big-ticket factors, confidence or the lack 
thereof, and militarization of the region.
    Confidence is in short supply. There is no confidence between the 
sides, but there's also very little confidence in the mediation process 
itself and in its ability to deliver progress. I would even say that 
there is little confidence in the international system that frames the 
settlement effort. This has become especially evident also after 2014. 
Azerbaijan in particular fears the process is cementing the status quo 
on the ground, which Baku, of course, finds unacceptable. And in the 
absence of confidence in the settlement mechanism, the use of force--at 
least tactically--to perhaps shake up the status quo, has become a part 
of calculations, which is something that many in Baku are fairly open 
about.
    On the Armenian side, on the other hand, there is quite little 
confidence in the international system's ability to provide any 
meaningful security guarantees, for Yerevan to be then able to engage 
in substantive talks.
    The second big factor has been the arms race in the region. I think 
that we all have followed the increase of that. Of course, it has not 
stopped since 2016. So, if we roll back prior to 2016, we just look at 
the sort of increase that has been on the rise for the last decade or 
more.
    Let me start with Azerbaijan. It has pursued a massive increase in 
military expenditure over the past decade. Three billion U.S. dollars 
were invested in defense in 2015 alone, which was a 165 percent 
increase over 2006. And of course, Azerbaijan has also sought to 
diversify its weapons acquisitions. We've seen a lot of cooperation not 
only with the Russian Federation, but also Turkey, Pakistan, and 
Israel.
    The Armenian side has worked hard to catch up, although in the year 
that I cited, 2015, the country's overall annual budget was smaller 
than Azerbaijani defense spending alone. Having said that, Yerevan is 
benefitting in many ways from the alliances and the close cooperation 
that it has with the Russian Federation, both bilaterally and in the 
CSTO. Many argue that, indeed, preferential tariffs for weapons 
purchases have probably helped close the gap.
    The upshot is that the military balance has probably not been 
decisively tipped. There are many different factors that play into 
this, but the dangers are no less small. After all, both sides have 
access to midrange missiles that could reach civilian areas and 
infrastructure deep into each other's territory--something that raises 
the stakes. The region also saw a progressive deterioration of security 
already since 2012. I won't bore you with the trajectory of that 
deterioration, but in 2016 it reached a qualitatively new level through 
that year's escalation.
    I will say a couple of words on the escalation and on the main 
logic of the deadlock and obstacles now. So 2016 came as a surprise--a 
surprise it probably shouldn't have been--with over 200 casualties and 
acquisitions, importantly, by Baku of two strategic heights, which was 
the first time that land changed hands since 1994. And this has very 
important implications. It gave Azerbaijan a morale boost. It also in a 
sense burst the myth of Armenian forces' invincibility. It fueled a 
desire for a more significant departure from the status quo, which had 
become unacceptable.
    On the Armenian side, it initially caused shock. But of course, it 
caused also a very strong upsurge of popular support for Nagorno-
Karabakh and the cause. And Armenians from all walks of life and many 
different places started traveling to Karabakh to provide support. It 
led to an important revision of Karabakh's security, with new trench 
and fortifications systems built, new command and control put in place, 
and a strong restructure of Armenia's armed forces. Armenia also 
experienced a backlash against Russia following April and, indeed, a 
querying of Russia's role as, on the one hand, a co-chair, but on the 
other hand, Armenia's main ally, who simultaneously happens to be a 
provider of weapons to Azerbaijan as well.
    The escalation seriously polarized the nations. On both sides 
maximalist positions got deeper and more entrenched. And on both sides, 
we hear calls for the ``final settlement'' of the conflict, which do 
not preclude the use of force. On the contrary, many call for the use 
of force and have given backing to a possible military option. Our 
research on this in all these locations has been very instructive. 
There seems to be no appetite on the Armenian side to countenance the 
notion of the return of territories adjacent to Karabakh. I think 
that's been, for me, a really important point, that this distinction 
between the Karabakh and the territories seems to have been erased from 
the public discourse.
    And on the Azerbaijani side, on the other hand, there is an 
insistence that the only settlement option that would be acceptable 
would be to reintegrate Karabakh into the territorial integrity 
framework of Azerbaijan.
    We have already said that the escalation galvanized the settlement 
process briefly, with the two meetings of the presidents last May and 
June. But basically, the process ground to a halt by the autumn of 
2016, and there have since then been serious security incidents, which 
have claimed dozens of casualties during the course of this year alone.
    Last couple of words on the renewed deadlock and the obstacles 
today--the main obstacles can probably best be summarized as a tension 
between security and substantive progress in the talks. Armenia, of 
course, insists on more security. We've seen the calls for the 
investigative mechanism, for increased capacities of Mr. Kasprzyk's 
office, and, indeed, confidence and security building measures [CSBMs] 
before substantive talks can start. An official in Yerevan told me, 
``No one in Armenia is ready to engage in negotiations if we're under 
fire.'' I think this captured the logic very well.
    But Baku, of course, feels that these various CSBMs will make it 
more comfortable for Yerevan to just continue with the status quo that 
is there, and that is so deeply unsatisfactory for Baku. And again, 
basic confidence is lacking.
    The last three months have been much calmer on the line of contact, 
very interestingly, after a serious deterioration of security earlier 
this year. I think that this in a way allowed also for the meeting of 
the two presidents to take place earlier this week.
    I would say it's absolutely essential that negotiations continue to 
dispel risks of escalation. And in fact, a lack of contact between the 
sides is very dangerous. Both the absence of political contacts, but 
also the continued lack of contact between militaries on both sides. In 
contrast with other post-Soviet conflicts, there's barely any contact 
between the sides at all in this conflict--both in terms of the 
political negotiations but also in terms even of track two efforts. I 
know that some are underway, but they've been fairly limited.
    Of course, it's excellent that the meeting took place. And 
hopefully it will manage the conflict better. But it will be 
interesting, whether it manages to bring a change in the party's 
calculations. I would say there's also a risk that if the renewed 
process does not manage to tackle both substance on the one hand and, 
indeed, the concerns about security on the other hand, we are possibly 
entering a phase where there will be a renewed risk of escalation.
    Very last word: If there is a renewed risk of escalation, and 
indeed if that escalation were to occur, I think it's important to 
think also about the humanitarian consequences it could have. I don't 
think that a huge escalation is in the interest of any of the parties. 
But if an escalation were to spiral out of control, it probably would 
lead to significant humanitarian consequences. We can discuss that 
during the debate. It's been interesting to see that humanitarian 
actors on the ground are very concerned about this. They're making 
contingency planning. And I think that--again, our research showed that 
this is something that is very important because the humanitarian 
contingency capacities on the ground are exceedingly limited.
    I would probably stop right here. Thank you very much.
    Mr. Tiersky. Magdalena, thank you. You've put a tremendous amount 
of information on the table for us to chew over.
    I'll now turn to Ambassador Carey Cavanaugh for some thoughts on 
the engagement of the international diplomatic process as regards this 
conflict.
    Amb. Cavanaugh. Thank you. First, I want to thank the Commission 
for bringing us together here today to talk about Nagorno-Karabakh. I 
think this is an important conflict that does not get the attention 
that it needs. And I think there's a consensus, at least among those of 
us presenting today, that this past year has really driven this point 
home. The title of today's presentation, ``Averting All-Out War,'' I 
think is a legitimate one. And we've talked about the dangers of this 
dispute getting out of hand in research that Magdalena has put out and 
that I have put out. We will touch on that as well today.
    I want to blend some of my comments with what she said to build a 
base for where we are with the negotiation process and the conflict 
itself. I couldn't agree more with Magdalena's comments. This is not a 
frozen conflict. People who use that expression are wrong. This 
conflict has thawed, and I think, at this point, has become very 
dangerous. There really have been three marked changes in recent time 
that make it more 
problematic.
    First and foremost, as she eloquently described, positions have 
hardened on all sides. I think it's fair to say, from every perspective 
the parties are farther apart from an agreement today than they were in 
the past.
    The armaments that Magdalena detailed have also changed the dynamic 
in the region. There has been a problem with fighting in this region 
for decades, at this point. But the amount of arms that have been 
brought into the region on all sides have made this a much more 
delicate situation. The clash that occurred in April 2016 was a 
significant one and it happened quickly. When I think about averting 
all-out war, there's a concern not only of a deliberate move toward 
military action but also a concern about an accidental one. It would be 
very easy to envision things happening along the line of contact that 
very quickly get out of hand, given the intensification of armaments 
and the qualitative changes in the type of armaments that are arrayed 
both along the line of contact and along the Armenian and Azerbaijani 
border.
    The third piece that's important to keep in mind is that the South 
Caucasus itself has not been static. There has been tremendous 
development and change in this region. Anyone in this room who has been 
recently to Yerevan or to Baku sees these are not the Yerevan and Baku 
of the former Soviet Union. If you have been to Tbilisi, this Georgia 
does not look like the Georgia of before. There are dramatic changes in 
the economic integration of the region. There's dramatic changes in the 
growth and political change in the countries of the region. And that 
has put a greater premium on ensuring that peace is maintained in this 
region.
    So, with that as a backdrop, let me give you a sense of how the 
OSCE Minsk Group itself came about and go back into some of that 
history. As Alex said earlier, I wrote a piece for Security and Human 
Rights that was published this month that gives a history of this 
[``OSCE and the Nagorno-Karabakh Peace Process,'' 27 (2016) pp. 422-
441]. In a shortened form, the dispute over Nagorno-Karabakh is the 
embryonic peace effort of OSCE. The conflict broke out in the Soviet 
Union. It was an internal conflict originally. Then the Soviet Union 
fell apart, making it an international conflict. It became dealt with 
immediately by CSCE, so in fact it pre-dates OSCE. And at the time it 
arose, the issue from the international perspective was, how do you 
deal with this?
    The U.N. had already found it was being swamped around the world 
with other conflicts. And the U.N. approach was that regional 
organizations should increasingly deal with regional problems. And 
CSCE/OSCE was a new organization. This was an appropriate new effort 
for it to undertake. And it embraced it readily. And the U.N. 
immediately supported that embracement. Briefly, the U.N. maintained an 
envoy for Nagorno-Karabakh too. Not a mediator, but a special envoy, 
Cyrus Vance [the former U.S. Secretary of State], was sent out to the 
region to look at what was going on for the Secretary General. The U.N. 
agreed with the approach that was being taken by CSCE [later OSCE] and 
from that point on, it has been the focus for mediation and negotiation 
efforts. It hasn't, however, been static. Just as this conflict has 
changed its dynamic over time, so too has the mediation process.
    Initially the thought at CSCE was, this will be really quick. We're 
going to have a meeting. We're going to bring together people. We'll 
just cut a deal. Belarus was the newest member of the OSCE at that 
point and they volunteered to host the peace conference. That's why 
it's called the Minsk Group. It was nothing more than that. Italian 
diplomat Mario Raffaelli was in charge of the initial effort. And he 
gathered other interested parties in Rome and started kicking around 
how CSCE might do this. In fact, at that point there was no Minsk 
Group. There was to be a Minsk conference. That conference would be the 
officials meeting in Belarus with the parties to the conflict--
undefined. They would quickly sort out the problem and it would be 
done. We never would have had this meeting today or the past 20 some-
odd years of conflict.
    As we all know, that didn't work out. In Rome they created a 
subgroup, a Minsk Group, that evolved into the current negotiating 
mechanism. Initially that mechanism was led by a single European 
country--Italy, then Sweden, then Finland--with a separate negotiation 
effort going on at the same time by Russia. And it turned out, that did 
not help this process. What we saw happen in 1996 and 1997 is a 
dramatic change in that there becomes a fused negotiation process, 
where there will be a neutral European country and Russia and, very 
quickly, the United States. So a troika--triple co-chairmanship emerged 
in 1997 to focus on this conflict and really to give it, I think, the 
type of attention it deserves.
    The third party is France. So France, Russia, and the United States 
become the lead mediating parties in this dispute, all three veto-
wielding members of the United Nations, all three significant global 
powers. And countries with the ability to provide the military, 
political, and economic support to back a solution if a solution could 
be found.
    Now, Magdalena said, quite properly, there is a question about 
confidence in the negotiation mechanism. And I think that question 
arises because there's a misunderstanding, in part, of how that 
negotiation mechanism works. OSCE is an amazing institution. It is a 
consensus institution. It can do anything that all its members agree to 
do. And any action that one member that doesn't support--and we saw 
this recently with the closure of OSCE's offices in Armenia--they 
cannot do.
    The intent was not to create a mediation format that would force 
the parties into an agreement that had been brokered by outsiders. The 
intent was to create a mediation format that would help the parties to 
the conflict find a solution that was acceptable to all of them, and 
that those mediators would have, behind them, the political, economic 
and military power to ensure that the parties could be confident, if 
you found an agreement, that agreement would be supported. And what we 
have seen from 1997 on is repeated iterations--some with me as a co-
chair, some with Ambassador Warlick as a co-chair--where almost every 
imaginable solution has been brought to the table.
    There is a frustration there that this mechanism has not yet 
yielded success. But I would add, repeatedly the parties have come 
fairly close to some agreements. There was significant progress in Key 
West in 2001. There was significant process in Kazan. There have been 
times the conflicting parties indeed have approached compromise in a 
much more thorough fashion than they are today. So I do not believe you 
can fault the mechanism. The mechanism, in fact, has functioned the way 
it is supposed to.
    And I would add, OSCE had delivered in a way that would be, for 
many, the envy to have a negotiating process like that. Three U.N. 
veto-wielding members of your negotiating team is already pretty cool. 
The power that Russia, the United States, and France possess is 
significant in all those dimensions that I mentioned. The attention 
that this conflict gets is substantial. You will not have an American 
President since 1987 that doesn't know about Nagorno-Karabakh. Many 
American Presidents don't know about conflicts of this scope in other 
corners of the world. They know about this one. Secretaries of state, 
foreign ministers of almost all European countries know about Nagorno-
Karabakh. OSCE has delivered an enormous amount of political attention 
that I think is part of the reason why we also haven't seen even more 
violence and loss of life in this region.
    So there is a benefit that has come out of this mechanism that is 
useful. The structures to support a peace settlement have also evolved. 
Today, we see there's an OSCE Chairman in Office. It's rotated, so 
every year we get a new European government in charge of OSCE, a new 
series of visits by presidents and foreign ministers to the region, a 
new learning curve where all the European countries--and I include in 
that the United States and Canada, the OSCE/CSCE countries--are all 
acquainted with this conflict and this problem, and all focused on it. 
The Chairman in Office [CIO] also has a personal representative in the 
region who helps deal with problems along the line of contact and 
reports back and provides the permanent presence in the region. The 
Minsk Group co-chairs do travel to the region, but they can't be there 
all the time. In fact, the OSCE has a full-time presence there all the 
time. Also, in Vienna, there is a High-Level Planning Group to deal 
with peacekeepers or monitors, if you ever get close enough to a 
solution. And finally there is the Minsk Group itself, three co-chairs 
and a group of supporting nations, all of whom track more intensely 
this conflict. So we see what's developed at Vienna, at OSCE, is really 
a fairly complex and flexible institution to help support peace efforts 
in this region.
    Lack of success--if you're a diplomat, part of your job is taking 
blame for lack of success. The Minsk Group is very good at that. We 
keep trying. All the Minsk Group co-chairs will say that. The current 
co-chairs will say that. We are always trying. But the intent is to 
find a solution the parties themselves can embrace. I mentioned that 
the negotiation mechanism did not work well before 1996-1997. There was 
a real change then in the dynamic between the United States and Russia 
and the other European players. And I will attest, and I suspect 
Ambassador Warlick will as well, that there has been a level of 
cooperation within the co-chairs on addressing this conflict that has 
surprised most people.
    Despite problems between the United States and Russia periodically, 
we find very solid cooperation on dealing with the problem of Nagorno-
Karabakh. The French tend to be consistent all the time. We've seen 
this solid level of cooperation. That's made a difference too. I think 
it's provided the tools--OSCE is offering the tools that are needed to 
deal with this kind of problem. And it should give us some hope on the 
ability to move forward more toward a solution. The challenge is--back 
to where I started--that today Nagorno-Karabakh is not a frozen 
conflict. The positions have hardened. The parties have moved further 
away from being comfortable with making fundamental compromise. And I 
think there's an understanding, this can only get solved if there is 
fundamental compromise.
    Magdalena started with three principles enshrined both in the 
Helsinki Final Act, but also the U.N. Charter. The question about 
territorial integrity and sovereignty--it's a fundamental international 
principle. The question about ethnic self-determination, also a 
fundamental international principle. And very much embraced in the 
modern era, thank God, non-use of force. And when you take these three 
principles together, it does not offer an easy solution to this 
problem. This problem is not unique to the South Caucasus. We've seen 
votes in the past weeks, in Catalonia about ethnic determination. We've 
seen votes in the Kurdish regions of northern Iraq. These problems 
exist in many different places. So I don't think it's an easy problem 
to solve. But this is a problem that's getting attention of the 
international community in a way that it needs to.
    There is concern about averting all-out war, and some question why 
does Nagorno-Karabakh--with the size of the population it has, with the 
size of Armenia and Azerbaijan's population--why does it get all the 
attention that it does? In part it is the region in which it's located. 
A conflict here runs the risk of spilling over into Iran, as Magdalena 
said, bringing in Turkey, bringing in Russia, potentially bringing in 
NATO. It's an area where no one feels comfortable that you could have 
the potential for a significant clash. So it guarantees attention at 
high levels to deal with that problem. I think that attention will 
continue. What's sad, and what we've not seen lately, is more ability 
or willingness to move forward toward these political compromises.
    I had commented before the meeting on Monday in Geneva between 
President Aliyev and President Sargsyan that there were three easy 
things they could do there. Two of them were to agree once again to 
what they had agreed to twice last year: expand monitors for Ambassador 
Kasprzyk's team. I would note, that's an expansion of only about seven 
or eight people. That would make their monitors roughly the size of 
this side of the room for the entire region. Agree to an incident 
investigations mechanism, because we have constant claims back and 
forth who started something, and no ability to say. And again, this was 
raised in Vienna and raised in St. Petersburg with President Vladimir 
Putin. The parties agreed to those. You know, three easy things would 
have been those two and to agree on the date of the next meeting. What 
we have seen coming out of the meeting so far, and maybe there's more, 
is agreement to meet again . . . sometime.
    Two other things I'd hoped to see, that would have been much harder 
but I think are important--first, military confidence and security 
building measures. This ties back to the point Magdalena made, and I 
did too, about the intensification of armaments. The region's gotten 
too dangerous. It would be useful to have more ability, if things 
happen accidentally, for one side to communicate with the other. We 
know that can exist. It's existed before. You can have a hotline, in 
effect, between Baku and Yerevan, that if something starts getting out 
of control, you know if you pick up that phone and dial the number 
somebody will answer it at the other end. For a while they even had 
that, but nobody would answer at the other end. If we could have that 
kind of agreement today, that would help.
    If the parties aren't able to do that, we probably should look at 
having some military confidence and security-building measures between 
others: between Turkey and Russia, to make sure if things do get out of 
hand, their forces don't conflict or collide. Perhaps between the 
United States and Russia sharing intelligence information on what we 
see happening in the region, and where problems could arise. Last week, 
an official of the CSTO, the Collective Security Treaty Organization, 
said the most important question here, in his mind, is balance, because 
Russia's providing armaments to both sides. Maybe we should have some 
CSBMs talking about whether there is a real balance? Because as you 
introduce new systems--and we saw this past year several new armaments 
were introduced in both Armenia and Azerbaijan--you may inadvertently 
tip the balance and cause a problem that had not been anticipated. So 
that's one thing I think that's harder, could be done hopefully with 
the parties doing it. But some of that could be done from outside.
    A second harder piece is to begin laying this groundwork for civil 
cooperation among the countries. Presidents of both countries say 
repeatedly they want a political solution. They don't want to use 
military force. That's there's an understanding that there would be a 
solution. If there will be a solution, several things call for greater 
cooperation. How do you manage water? How do you build a logical 
electrical grid? Why build something one way this year if you're saying 
you support a solution, and next year it's in the wrong place? Those 
kind of questions can be dealt with quite easily and quite readily and, 
I think, don't raise the specter of intensifying the status quo or 
making it harder to move ahead.
    I remember when I was co-chair visiting the HALO Trust and looking 
at the great work they were doing with demining in this region. If 
Azerbaijan's hope is all the land comes back to Azerbaijan, why would 
you want landmines in it? The day you get it back, you want no mines in 
it. The day whatever solution is brokered between the parties with the 
support of OSCE, you want no landmines in it. So why not cooperate on 
those civil steps to remove those?
    And then the last item I would raise I think is the hardest--
greater signals from the presidents of both countries on being prepared 
to accept a political compromise. It's very easy to say if things don't 
go well we're prepared to fight. It's really hard to say we're prepared 
to find a way to solve this problem. And it isn't 100 percent of what I 
want versus nothing of what the other side wants. It's something in the 
middle. And I think that signal has not been conveyed effectively for 
the last 15 years.
    So let me stop.
    Mr. Tiersky. Ambassador, thank you for what was not only an 
extremely instructive overview of the historical engagement by outside 
parties in this process, but also an extremely, I think, practical set 
of potential next steps in the conflict.
    I'll now pass it to Ambassador James Warlick.
    Thank you.
    Amb. Warlick. Good afternoon, everybody. Many thanks to the 
Helsinki Commission for organizing a public briefing on the Nagorno-
Karabakh conflict. I believe the Commission staff has made available a 
speech I delivered at the Carnegie Endowment for International Peace 
three years ago. In my comments today, I will draw from that speech, 
which is as relevant today as it was then.
    When I started as U.S. co-chair of the OSCE Minsk Group in 2013, 
the situation along the line of contact was unstable and dangerous. The 
threat that needed to be addressed was the presence of snipers, which 
would regularly fire across the line of contact, resulting in deaths 
and injuries, despite the existence of a ceasefire. My predecessors in 
the Minsk Group, including my colleague Ambassador Cavanaugh, sought 
ways to reinforce the ceasefire and prevent the actions of these 
snipers.
    Today, the threat is vastly greater. The sides have positioned 
heavy weapons along the line of contact, including mortars, grenade 
launchers and artillery. Use of these weapons has brought an increase 
in the death toll, including among innocent civilians. The risk of 
miscalculation and escalation are higher than ever. We need to redouble 
our efforts towards a lasting peace. And peace is within reach.
    The sides have come to a point where their positions on the way 
forward are not that far apart, despite what you may see in the media. 
They've almost reached agreement on several occasions, as my colleagues 
have just said, most recently in 2011. And when they inevitably return 
to the negotiating table after each failed round, the building blocks 
of the next big idea were similar to the last time. There is a body of 
principles, understandings and documents already on the table that lay 
out a deal. And no one has suggested that we abandon them.
    The challenge is to find a way to help the sides take the last bold 
step forward to bridge their remaining differences and deliver the 
peace and stability that their populations deserve. For two decades, 
however, peace has been elusive. All parties distrust each other and a 
generation of young people has grown up in Armenia and Azerbaijan with 
no first-hand experience of each other. As many have noted, older 
generations remember a time when Armenians and Azerbaijanis lived side-
by-side and differences did not need to be resolved through the barrel 
of a gun.
    Of course, the benefits of peace far outweigh the costs of 
continued stalemate and avoid the catastrophic consequences of renewed 
hostilities. Armenia would immediately benefit from open borders, 
greater security, and new opportunities to trade, travel and engage 
with all its neighbors. Azerbaijan would eliminate a key impediment to 
its growth as a player on the world stage, regional trade hub, and 
strong security partner, while giving hundreds of thousands of refugees 
and internally displaced persons a prospect or reconciliation and 
return. The thousands of people living in Nagorno-Karabakh would be 
freed from the prison of isolation and dependence.
    The presidents met again last Monday in Geneva. While we do not 
know the details of that conversation, it appears that there is simply 
not the political will to move forward with a settlement at this time. 
While we should welcome such face-to-face meetings, without progress on 
substance they risk frustrating the sides and continuing the stalemate 
on the ground. Following the escalation of hostilities in April 2014, a 
set of proposals was developed that could form the basis for progress. 
We, as co-chairs, worked hard to advance ideas for a way forward, but 
the process stalled.
    While the work of the co-chairs is held in confidence, I am 
personally familiar with these proposals and believe they could be a 
starting point for the sides to seek a settlement. I would urge the 
presidents to engage with each other, if not on these proposals, then 
on the principles they know will be the basis for peace. Perpetual 
negotiations, periodic outbreaks of violence, the isolation of Armenia 
and the people living in Nagorno-Karabakh, frustration in Azerbaijan 
and anger among its populations of internally displaced persons 
[IDPs]--this is not a recipe for peace or stability, and is certainly 
not the path to prosperity. The people of the region deserve better.
    Let me walk you through the key elements of that well-established 
settlement--all of which have been in the public domain since appearing 
in joint statements by the presidents of Russia, France, and the United 
States on numerous occasions. At the heart of the deal are the U.N. 
Charter and relevant documents, and the core principles of the Helsinki 
Final Act. In particular, we focus on those principles and commitments 
that pertain to the non-use or threat of force, territorial integrity, 
and equal rights and self-determination of peoples.
    Building on that foundation, there are six elements that will have 
to be a part of any peace agreement if it is to endure. While the 
sequencing and details of these elements remain the subject of 
negotiations, they must been seen as an integrated whole. Any attempt 
to select some elements over others will make it impossible to achieve 
a balanced solution. In no particular order, these elements are: First, 
in light of Nagorno-Karabakh's complex history, the sides should commit 
to determining its final legal status through a mutually agreed and 
legally binding expression of will in the future. This is not optional. 
Interim status will be temporary.
    Second, the area within the boundaries of the former Nagorno-
Karabakh autonomous republic that is not controlled by Baku should be 
granted an interim status that, at a minimum, provides guarantees for 
security and self-governance.
    Third, the occupied territories surrounding Nagorno-Karabakh should 
be returned to Azerbaijani control. There can be no settlement without 
respect for Azerbaijan's sovereignty, and the recognition that its 
sovereignty over these territories must be restored.
    Fourth, there should be a corridor linking Armenia to Nagorno-
Karabakh. It must be wide enough to provide secure passage, but it 
cannot encompass the whole of Lachin district.
    Fifth, an enduring settlement will have to recognize the right of 
all IDPs and refugees to return to their former places of residence.
    Sixth, and finally, a settlement must include international 
security guarantees that would include a peacekeeping operation. There 
is no scenario in which peace can be assured without a well-designed 
peacekeeping operation that enjoys the confidence of all sides.
    The time has come for the sides to commit themselves to peace 
negotiations, building on the foundation of work done so far. It is up 
to the governments of Armenia and Azerbaijan to take the first step. 
They should consider measures, even unilateral ones, that will 
demonstrate their stated commitment to making progress, reducing 
tensions, and improving the atmosphere for negotiations. They should 
reduce the hostile rhetoric and prepare their populations for peace, 
not war. Let's work together towards a lasting peace.
    Thank you.
    Mr. Tiersky. Ambassador Warlick, thank you very much for what I 
think was a tremendously powerful call to action. I would now like to 
take the moderator's prerogative to ask you all about elements of what 
you've been discussing. And really, given that our briefing is focusing 
on U.S. policy, I want to stick to U.S. policy and the policy of its 
negotiating partners, essentially, as opposed to the parties directly 
involved in the conflict. And let me direct one question principally to 
each of you, but have you each comment.
    So Magdalena in passing reminded us that this conflict is on the 
EU's doorstep. And yet, the EU has not been featured prominently in the 
panelists' discussion of the main players in a potential eventual 
solution to this conflict. I'd like Magdalena to talk a little bit 
about what she sees as the EU's role today and going forward.
    For Ambassador Cavanaugh, you informed us about the evolution of 
the co-chair process, partially as a result of a moment of negotiations 
in which Russia was leading its own negotiations in the region. I'd 
like you to comment a bit on what Russian interests are in the Nagorno-
Karabakh issue. And in particular, you mentioned there is excellent 
cooperation in the context--or productive cooperation in the context of 
the co-chairs process. To what extent does Russia still--and on what 
occasions--does Russian bilateral engagement also occur, and to what 
end? How should we see the Russian role in this negotiation process?
    To Ambassador Warlick, given your call to action and given that you 
are the most recent full-term U.S. co-chair, I wonder if you could 
speak a bit to the role of the United States today. In particular, 
there have been public reports of what the status of the U.S. co-chair 
will be going forward, given the State Department reorganization 
process. Can you give us a sense of--and really, I suppose this is a 
question for all of the panelists--are you calling for additional 
attention by the U.S. executive branch today? And what would that look 
like?
    So, please, if we could start with Magdalena. If anyone else would 
like to jump on this question of Europe, and then we'll move to Russia 
and then the United States. And then--ladies and gentlemen, then I'll 
ask for some questions from the audience.
    Ms. Grono. Thank you very much, Alex.
    It's a tricky question about the EU's role. In its 2015 revision of 
the European Neighborhood Policy that targets in the east both Armenia 
and Azerbaijan, in addition to Georgia, Ukraine, Moldova, and Belarus, 
the EU has emphasized security and stability as one of the key 
elements.
    I would also say that 2016 came as a very unexpected and dangerous 
wakeup call. For the four days of that short war, many in Brussels were 
scratching their heads trying to understand what exactly was happening 
in that neighborhood, which is in fact quite so close. So, I think for 
the EU de-escalation is an essential consideration.
    The EU of course is not formally a player in the conflict 
settlement process. And though there have been different sorts of 
opinions about that and some experts have called for a greater EU role, 
I agree with what Ambassador Cavanaugh said, that the OSCE is a 
consensus-based organization--and there is very little appetite for 
changing the format. I think that there is no sense of need, or indeed 
wish in the current setup of that format, to bring in the EU in a 
formal way. But I think that the EU still has a very important 
contextual role to play.
    Now what can a contextual role like that look like? The EU has a 
lot of currency at the moment in its bilateral relations with the 
region, and in particular, indeed, we've seen a lot of dynamism in the 
bilateral EU-Armenia and EU-Azerbaijan relations over the past couple 
of years with progress on the so-called new agreements that are being 
negotiated and will hopefully soon be finalized. The one with Armenia, 
in fact, has been finalized.
    There is interest on the part of the EU's partners to see these 
relationships blossom, and I think that it's important therefore for 
the EU also to emphasize in the context of these bilateral relations 
the necessity for certain steps to be taken towards a de-escalation of 
tensions. Of course, that may not have a direct implication for the 
settlement process, but there is the case to be made for developing 
constituencies for peace, for insisting that we have de-escalatory 
rhetoric coming from the leadership, et cetera--some of these issues 
that have been very difficult to address for the past 15, 20 years, but 
they really need a lot of attention.
    Secondly, the EU pursues a lot of people-to-people contact and 
indeed supports the so-called track two initiatives. There have been 
three iterations of a program called the European Partnership for 
Nagorno-Karabakh, EPNK; such initiatives are aimed at supporting or 
developing confidence-building measures across the conflict divide. It 
has been very, very difficult to see such initiatives get off the 
ground over the past two years. I would say that there has been in fact 
a trend whereby many actors in the region haven't been so keen on 
seeing this progress. But it's very important that these types of 
initiatives help build constituencies that can in fact advocate for the 
benefits of peace. And this is what the EU has been doing, but I think 
that it can bring more political weight to this.
    And lastly, of course, France, as one of the co-chair countries, is 
an important EU Member State. And I think there the EU can--and as it 
does--give a lot of its own backing to France. Last year, it was quite 
interesting in the first summit of the presidents in Vienna, in May, 
High Representative Mogherini did meet also with Azerbaijani and 
Armenian leaderships prior to their own meetings and prior to the 
meetings with co-chairs. This was an important political signal. There 
are many high-level political dialogue opportunities in the EU 
context--for instance, with the Armenian and Azerbaijani presidents 
each traveling to Brussels for meetings with President Tusk this 
February. These are all fora in which a lot of political messaging can 
and should be delivered.
    Last comment on what Ambassador Cavanaugh said earlier. I could 
underwrite what he said; with Ambassador's unparalleled experience with 
that process it's difficult to disagree on certain elements. But I 
would say there is one element on which I disagree. I think Ambassador 
alluded to a sense that there is a lot of political focus on the 
process, but I wonder: Is there really a substantive political push at 
a sufficiently high level? I sometimes feel with many of the protracted 
conflicts, not just Karabakh, we can fall into a trap of almost a 
bureaucratic inertia whereby administrations know that this is an issue 
that is going to be difficult to resolve, there is not a great 
likelihood that we will have progress, so we have known positions that 
are being reiterated. And I think this is a great risk, and that after 
the April 2016 escalation, we really need to walk away from 
bureaucratic inertias. That's why the initiative to discuss the 
conflict today is very timely.
    Thank you.
    Mr. Tiersky. Thank you.
    I'd like to give either of our ambassadors a chance to comment on 
the question on Europe, or shall we move directly to Russia? Would you 
like to comment on Europe?
    Amb. Cavanaugh. I'll do Europe, please. Let me comment a little on 
Europe and then move into Russia.
    Mr. Tiersky. Great.
    Amb. Cavanaugh. One, Armenia's expected to sign a partnership 
agreement with the EU next month. It's clear there's an interaction, a 
relationship here. It's valued and important. Another item worth noting 
is the European Union also has a special envoy for this dispute--not a 
mediator, but someone keeping an eye on it, what's happening, what 
could be done, how might Brussels help this process? So it has been 
engaged, I think, in a very positive way.
    And I want to strengthen what Magdalena said. The efforts the EU 
has made on civil society, to use NGOs, to bring people together, it 
has been essential. What Ambassador Warlick said is very true. I saw 
this firsthand visiting refugee camps in Azerbaijan. There is not 
contact in this next generation of populations in the region with one 
another. Those minimal contacts can make an enormous difference. And 
again, if we're looking toward a future with a solution--a political 
solution where this region becomes integrated again as one--you 
shouldn't have magic day 2020, the first meetings between Armenian and 
Azerbaijani journalists and engineers and air traffic controllers and 
highway engineers and hydro experts. These things should be being 
developed, being worked out, now. Youth groups should have contact, 
now. Sports groups should have contact, now. The EU has played a role 
there others couldn't.
    And that leads into responding to your question about Russia. I 
think Russia saw in 1994 it wasn't going to be able to solve this 
itself. It put its best effort in it. It had a very solid negotiating 
team. It had very high-level political attention. It did all it could. 
There was not sufficient confidence that that would be a solution that 
was a solution that was best for the region. And there wasn't 
sufficient confidence that Russia was going to be prepared to back that 
economically to the degree that it would be necessary.
    And I think what we've seen that has evolved is very much a sharing 
of responsibilities. The EU is doing things it can do best. Russia is 
doing things it can do best. When the April skirmish broke out, Russia 
was a central player on bringing about a ceasefire. I suspect Russia 
would always be the central player on bringing about the ceasefire. It 
has a history of contacts with the militaries of both countries, right 
down to supplying arms to both of them, so those contacts continue. And 
it's there. The European Union, France are farther away. The United 
States, even farther away. So there's a division of authority and 
responsibilities here that I think has been very helpful.
    Russian involvement in this region, I think, is complex. And many 
people question--you hear this in Armenia and Azerbaijan--if Russia has 
ulterior motives. They were always our ally, now you can't trust them. 
Both sides say that. It becomes a difficult position to deal with.
    But I think what Russia has seen is, one, it couldn't solve this 
problem on its own; and two, other areas with similar problems haven't 
gone all that well. Georgia is not a good solution, where Georgia 
stands today. Crimea is not a good solution. Eastern Ukraine is not a 
good solution. It is not in Russia's interest to have yet another 
problem like that emerge in the South Caucasus. If there's a way to 
cooperate with France and the United States in the OSCE negotiating 
format to find a solution, that Armenians and Azerbaijanis can embrace 
and are comfortable with, that's a good solution for Russia. And I 
think Russia sees that.
    It has now growing--and this is not helpful--a vested interest in 
selling arms to both Armenia and Azerbaijan. I think it recognizes the 
danger in that. I cited a Russian officer's comment on that, the 
importance of trying to keep a balance in that. But I think Russia 
would see the value of a solution would outweigh the value of the arms 
sales. So I don't think that would be an impediment to Russia helping 
move a solution forward if the groundwork is there for a solution to be 
made.
    I think it's a sincere effort. And I think that really has led, as 
I said earlier, to a degree of cooperation among us--between France, 
the United States, and Russia--that surprises people, because it's an 
area where it is in no one's interest for a loss of life in the South 
Caucasus, no one's interests for greater instability here, and 
certainly no one's interest in all-out war.
    Mr. Tiersky. Ambassador, thank you. I realize others may want to 
comment on Russia, but I'm also conscious that unfortunately we are 
running out of time, and I certainly would like to give members of the 
distinguished audience a chance to have their brief say. Let's move to 
perhaps one of the really key elements that I wanted to talk about, 
which is, what is the panel's view on U.S. engagement today and 
tomorrow?
    Ambassador Warlick, would you like to start on that?
    Amb. Warlick. Sure. Just one word on Russia. Despite the strained 
relations between the U.S. and Russia, the Nagorno-Karabakh conflict 
was and is one of the areas where we have worked together with Moscow 
closely and collaboratively. My counterpart Ambassador Popov is a true 
professional. I consider him not only a colleague but a friend. Foreign 
Minister Lavrov invited the co-chairs to come to Moscow, and met with 
us in New York. President Putin included us in his summit meeting in 
St. Petersburg with the two presidents. So I would say that this is one 
issue where we have truly cooperated. And I sincerely believe that the 
Russians are committed to a peaceful settlement and are working towards 
that.
    The U.S.--of course, I don't have any inside view of this 
administration, but I'll just say in the last administration, there was 
no question that Secretary Kerry was personally involved and deeply 
committed to a settlement. He brought the presidents together on the 
margins of the NATO Summit in Wales for a very productive discussion. 
He also met with them in co-chair format, together with Foreign 
Minister Lavrov and the French then-state secretary on the margins in 
Vienna. What struck me was that Secretary Kerry, despite all that was 
going on in the world, was very knowledgeable about the conflict and 
deeply committed to finding a solution.
    For this administration, I believe all of you know that here is a 
new U.S. co-chair of the Minsk Group. He has the same status that I had 
and that Carey had. I hope that is a signal to the region that this 
administration will continue to work towards a negotiated settlement. I 
do believe that the senior leadership in this administration needs to 
be directly involved in addressing the conflict. As I said in my 
statement, the risks of renewed conflict and instability in the region 
should be a concern to all countries. The potential loss of life and 
the risk of a much more serious conflict--and we saw in April 2016--
should be of great concern to the administration. And I hope as time 
goes on we will see leaders in this administration engage actively 
together with Andrew Schofer as co-chair.
    Mr. Tiersky. Would anyone else like to add to that particular 
point, U.S. engagement? No? OK.
    Here's what I propose, ladies and gentlemen, for the audience 
questions. We unfortunately are going to have to vacate the room in not 
very long, so I propose to take those who would like to intervene, at 
least two or three at a time. There is a microphone in the back of the 
room. If I could ask who in the audience might want to ask a question 
or make a statement, please make it brief and direct it to the 
panelists. I see someone in the back of the room. Let's start with 
those three together, please. And please be brief so that we can get in 
a second round immediately after yours.
    Questioner. Hello. My name is Hayk [ph]. I am a journalist from 
Armenia, working for Armenian television.
    I'll try two brief questions. First question is, is Nagorno-
Karabakh conflict the only and the last conflict, international issue 
in which the United States and Moscow cooperate in a friendly manner, 
as allies? Because we have conflicts in Georgia, and we know that the 
parties pursue different perspectives here or, same refers to Crimea. 
But is Karabakh conflict unique in that manner when we can track almost 
alliance-type of cooperation between Moscow and Washington, D.C.?
    And my second question is about the deterioration of civil 
liberties and democracy in Azerbaijan, which we have been witnessing 
recently. The scandal with Azerbaijani Laundromat that poked out 
recently in Europe is known. And do you think that this problem of the 
deterioration of democracy and civil liberties in Azerbaijan should be 
considered as a factor for renegotiation? Because those international 
lobbyists or politicians who called for return of Nagorno-Karabakh 
under Azerbaijani control technically called for less democracy for 
Karabakh, because Karabakh is seen as relatively freer vis- a-vis 
Azerbaijan.
    Mr. Tiersky. Thank you very much.
    Next question, please.
    Questioner. Hi, my name is Alex Raufoglu. I'm an Azeri-origin 
journalist. I have two questions.
    One is, Ambassador Warlick mentioned the importance of engagement 
between the presidents. Please remind me, if I am mistaken, just two 
days before 2016 April war, we had two presidents in the White House, 
and one of them, I think it's safe to say, pressed that button. If 
having this highest-level summit in Washington between the presidents 
doesn't help them refrain from fighting back at home, then what else 
does?
    And number two question is about you mentioned, Ambassador Warlick, 
that the U.S. side was always present during the meetings in Russia. 
I'm remembering a meeting in Sochi which was supposed to be an ice-
breaking moment--I think Russian president was hosting that meeting, 
and you were not invited. Can you just remind us of the details or any 
insight about that meeting? Why wasn't the U.S. part of that meeting?
    Thank you very much.
    Mr. Tiersky. Thank you very much, and thank you for your brevity.
    Questioner. Hello. I am Vugar Gurbanov from the Embassy of 
Azerbaijan.
    I would like to thank distinguished panel for their presentations. 
And indeed, it's so true. And I would gladly be a student of Professor 
Cavanaugh, and I'm sure in Kentucky we would have extensive 
discussions, and that will be probably interesting to all other 
students.
    Actually, while listening to you, to your thought-provoking and 
deep analysis of the situation, and looking into the previous 
background of the situation, I got an impression that rather than to 
treat the disease, most attention is to try to treat symptoms. While 
the disease itself is known--and I'm very thankful to Madam Grono for 
highlighting it--fact of occupation, hundreds of thousands civilians 
displaced--all of these issues. And hundreds of thousands of people are 
still suffering. And of course, you mentioned about--and in your 
writings you put much focus, Ambassador Cavanaugh, on meeting of the 
presidents, which in itself was a very, very nice development. But 20 
minutes after that meeting, President Sargsyan made a statement which 
actually killed every hope it has created--I mean, the meeting has 
created--about saying that, no, Karabakh should be out of Azerbaijan 
and that's our only solution.
    And, Ambassador Warlick--and thank you very much for highlighting 
the components of the peaceful settlement, and which is a result of 
decade-long efforts of all involved. And now this shows--and this was 
not surprising to Azerbaijan side--that Armenian side is not sincere in 
the negotiation. They can come back and then walk away. And actually, 
what they are trying to do is, first of all, try to cement the status 
quo and then try to also promote the unilateral narrative to 
legitimatize the results of occupation.
    I'm coming to my questions. But my main point is that while you 
clearly underlined co-chairs' role, I think it's utmost important to 
put pressure on two sides, not to walk away from the negotiations. 
They're a peaceful plan and there are three principles: territorial 
integrity, non-use of force, and self-determination. And this should be 
treated as an integral--[inaudible]. No one can say that Karabakh 
should be out of Azerbaijan.
    And here is a fundamental question I would like your comment, is, I 
mean, abstracting from the position of Azerbaijan and Armenia, can a 
country go and grab a country's territory, and then say, let's 
negotiate and my only position will be--it's going away? And I am 
thankful to the Helsinki Commission report, which clearly shows that 
Armenia's intention is to incorporate Nagorno-Karabakh within its 
boundaries. That's actually all the questions that I had.
    Thank you.
    Mr. Tiersky. Thank you very much. Thank you.
    I will ask the panelists to take those questions that they would 
like to address, and I think I'll start with Ambassador Cavanaugh. And 
then if we could try to be brief from the panelist side, then I'll be 
able to get in a second round of questions, which I would dearly like 
to do in the interest of the audience, and we will press our luck by 
keeping the room for a few minutes extra.
    Please, Ambassador Cavanaugh.
    Amb. Cavanaugh. Sure, OK. Is Nagorno-Karabakh unique in U.S.-
Russian cooperation? No. There are a number of areas that the United 
States needs to cooperate with Russia on, a number of areas. In recent 
years, we've been quite successful in cooperating with Russia on North 
Korea, Iran, some of the steps that have been taken in Syria. So, no, 
we have the ability to cooperate on a wide variety of issues. I think 
that's important.
    The question of civil liberties, I think this is a legitimate 
question. More democracy, in the view of the United States of America, 
is always better--better spread of information, better spread of 
knowledge, greater confidence in the democratic structures of 
governance. So the more of that you see, that helps. So I think, no, 
anywhere where civil liberties are restricted becomes a negative 
influence on moving things ahead.
    And I think treating symptoms, not disease, goes back to the 
question on the limits of what OSCE can do. There's not an intent here 
to force a solution. If somehow the people of Armenia and Azerbaijan 
came and said to Washington or Moscow or Paris, just tell us what to do 
and we'll do it, we could give them something tomorrow. Actually, I 
know where something at State Department that exists that both sides 
came close to being comfortable with, we could pull that out. You 
[Ambassador Warlick] probably know where another one is. We could pull 
that out. But that's not how the OSCE works. So, indeed, we'll treat 
the symptoms, because the symptoms make it worse. Greater loss of life 
makes it harder to get a peaceful solution. If you were to have 
significant fighting today, with the ramifications that would cause for 
society across the South Caucasus--not simply Armenia and Azerbaijan, 
but Georgia as well--I think this would not make it easier to reach a 
solution. And so, of course we treat the symptoms. We push on the 
disease itself. But we don't have the key to resolving the disease.
    Amb. Warlick. I'll just address the two questions that were 
directed to me. The first one on the high-level meeting that, at least 
as the questioner said took place at the White House in April 2016--
there was no effort to host a bilateral summit meeting by the White 
House. I would say that the two presidents of Azerbaijan and Armenia 
often do attend international events, and sometimes they do converse on 
the margins of that, but there was no U.S.-hosted summit in Washington 
during my tenure.
    The Sochi meeting hosted by President Putin was not intended to be 
a full-fledged summit meeting. In fact, it was an invitation for both 
of the presidents to come together informally with President Putin, and 
that is what occurred. And we were pleased that the two presidents 
actually did talk under President Putin's auspices, on the substance of 
Nagorno-Karabakh conflict. My view is that whenever we can bring the 
presidents together, formally or informally, it's healthy for them to 
meet face-to-face and one-on-one where they can have an honest 
conversation, as we say, under four eyes. I am disappointed that so 
long went between meetings of the two presidents, and I was glad to see 
on Monday in Geneva that the two presidents were once again able to 
meet again.
    Ms. Grono. I just have a couple of quick points, but I thought it 
was more appropriate for the two ambassadors to start since they have 
much more direct views on the U.S. engagement. But I wanted to say on 
the question of civil liberties, I think that the way the question was 
posed was quite interesting, because of course it linked the civil 
liberties to the possible options in the settlement talks. I don't see 
it necessarily as a useful way of phrasing the question. What I would 
have thought, though, is that of course the trend of retreating civil 
liberties in the region is important, but I see it as more directly 
important especially in terms of the possibilities of building 
constituencies for peace. And I think this is really important. We've 
been talking about the fact that it's very hard to get an honest debate 
in the countries about what compromise-based solutions will look like. 
It's very hard for people to engage with those ideas, and it's very 
hard to really see civil society efforts reach across the conflict 
divide and build on those ideas. And it is in that context I see the 
possibly insufficient pluralism as a great risk.
    Now, in terms of the disease versus the symptoms, I actually feel 
that the principles on which a future compromise-based solution should 
be based go straight to the core of the disease. I really think that is 
what that set of principles is about. And the fact that it has been 
impossible to really work towards a compromise then creates a set of 
symptoms that, indeed, the international community is fire-fighting to 
address. But I think that the great disagreement is precisely around 
the disease. And so, if we manage to address the symptoms in the 
interim, that's very good. But again, coming back to what the two 
ambassadors have highlighted--the principles are the basis for the 
settlement. Also, Armenia and Azerbaijan are very important members of 
the OSCE community, and this is where I feel that indeed the ownership 
of those principles is in part theirs, and they will indeed have to 
play a strong role in pushing towards the compromise-based solution. 
And that compromise, unlike very often iterated in the press, will not 
be one-sided. Compromise indeed, by definition, will have to come from 
both sides and will be mutual.
    Mr. Tiersky. Thank you. We are a little bit over time. I would like 
everyone's indulgence in order to get as many perspectives on the table 
as possible. I will take--I see one in the back, two, and all the way 
in the back, three. Please be as brief as possible.
    Please, start, yes.
    Questioner. Yes, my name's Efgan Niftiyev. I'm with the Caspian 
Policy Center.
    I would like to thank all the panelists for very insightful views 
on the conflict, and it was very well summary of what happened, and the 
perspectives as well.
    First, I will disagree on one thing with Ambassador Cavanaugh on 
that. Yes, it is--there are efforts by the OSCE and others to resolve 
the conflict, but it's not only up to Azerbaijan and Armenia to resolve 
the conflict. There is enough reason to be, let's say, involved in a 
higher degree in the resolution of the conflict. There are much bigger 
implications for the region and the globe as well. That's why we have, 
like, big powers as mediators on the table. I know we have talked a lot 
about compromises and the political will, lack of political will. I 
just wanted to pose these questions to the panel saying that what, 
let's say, if you were to name one step from each side, what is it that 
Armenia or Azerbaijan has to make politically, as a show of political 
will to resolve the conflict? What is one step that they have to take 
on that?
    Mr. Tiersky. Thanks very much.
    And, next.
    Questioner. Thank you very much. My name is Aykhan Hajizada. I am 
from the Embassy of Azerbaijan. I express my gratitude to the panelists 
for their thought-provoking statements and speeches.
    Ambassador Cavanaugh referred to basic mechanisms and other 
proposals, co-chair countries in order to achieve a confidence between 
the two parties, Armenia and Azerbaijan, on the ground. I would like to 
refer to the Budapest Summit document, which actually gave an impetus 
to the renewed negotiation policies and directed co-chairs to achieve a 
negotiated settlement to the conflict would--which would eliminate the 
consequences of the conflict. And at the same time, there was an 
agreement to intensify and to strengthen the ceasefire, which currently 
is the same approach which are provided during the negotiations. How do 
you think how we can make an impetus on those two lines which should 
not be singled out, like confidence building measures [CBMs] and 
intensified negotiations--[inaudible]--political solution to the 
conflict?
    Mr. Tiersky. Great. Thank you for your question.
    Let's try to, again, be brief so that we can have the panelists 
give a response. Thank you.
    Questioner. Thank you. My name is Rasha Tashan [ph]. I'm from the 
Embassy of Armenia. And thank you very much for the panel, for your 
presentations.
    I have short question. I would rather like to comment on the 
presentation made by Madam Magdalena Grono and question raised by my 
Azerbaijani colleague about the roots and the origins of the conflict. 
It's really very important to define and to clearly understand the 
roots of the conflict. As you mentioned in your presentation, the 
region of Nagorno-Karabakh broke out from Azerbaijan in 1992. But let 
me disagree with you--sorry--Nagorno-Karabakh declared its independence 
in 1991, still when the Soviet Union existed, and declared its 
independence in the same way as Azerbaijan self-determined and declared 
its independence from the Soviet Union, in full compliance with that 
time legislation and laws. So the conflict itself is about the right of 
the people of Nagorno-Karabakh to self-determination.
    The second point in this regard is that, look, three principles of 
international law lays at the foundation of the negotiation and the 
settlement of the conflict. And one of them is the self-determination. 
It means that the international community recognizes the right of 
Nagorno-Karabakh to self-determination, and provides for the 
opportunity to express its will through, as Ambassador Warlick 
mentioned, legally binding referendum or plebiscite as the final stage 
of the settlement.
    And another point--my colleague from Armenian Public Television 
mentioned about the civil societies and the difference between Armenia 
and Azerbaijani societies that we are now witnessing. I mean, all 
panelists mentioned in their presentation the importance of dialogue 
between two societies, the importance of context. In this regard, just 
according to my friend, I would like to ask you--I mean, in Armenia we 
have flourishing, very active civil society. You can see lively 
discussion, lively public discourse in our society, both in the 
parliament and among the NGOs. But what is--and it varies in our 
counterpart in this regard, in Azerbaijan.
    Mr. Tiersky. Thank you.
    So I'd now like to ask the panelists to pick and choose what they 
would like to respond to--some of these were questions, some of these 
were not so much questions as remarks and comments--and any final 
thoughts you would have to leave us with. Perhaps I will go in the same 
order that we presented with to begin with, and ladies first.
    Ms. Grono. Thank you very much. I will first respond to our 
Armenian embassy colleague. Thank you for your comments. I don't 
actually think that I did go into the specific history of the conflict. 
So I don't think that there is--I particularly didn't go into that 
because, of course, there are a lot of elements that one would have to 
bring in and narratives differ, et cetera. So I think that in my 
presentation I tried to sum it up by saying that by 1991, 1992, the 
conflict took on the character of a full-scale war, and I think that 
probably is indeed something that you could agree with.
    I agree, though, with you that--and this is in reference to a 
previous round of questions--that it's important to indeed say always 
all the elements because things that are said are as important as 
things that are unsaid. So, for instance, this is in reference to an 
Azerbaijani's colleagues comment about the displaced persons. I did 
cite that over a million people were displaced. I did say that 
700,000--over 700,000 of those were displaced from Karabakh and 
adjacent districts. But it's important really to underline also that 
over 400,000 were displaced--of Armenians were displaced from 
Azerbaijan itself. I don't want to go into great details, but I just 
wanted to clarify this.
    I will answer the question about the one issue that would need to 
happen today so that we improve chances for peace in the future--I 
think that was your question--I'll say two things that would be 
priority. I think that, first, presidents would really need to start 
talking seriously with their publics about what the benefits of peace 
would be, but also what kind of steps towards settlement would be 
necessary and what compromise could entail.
    And secondly, I really would second what Ambassador Cavanaugh said 
earlier. I think it's very important to have a hotline among the 
militaries, at least in the short term, for the moment, to work towards 
prevention of large-scale incidents.
    Amb. Cavanaugh. Let me pick up with that, it has always been 
disheartening in this conflict that presidents from both sides will 
talk about the willingness to fight, the maximalist positions they 
would like to achieve, when in fact at the bargaining table they talk 
about compromise. After Key West, many of you are aware, my biggest 
complaint was that the presidents had done nothing to prepare their 
populations for a compromise, that they were getting very close to 
agreeing to. This has happened repeatedly.
    And I think what Magdalena said is true. Probably the foremost step 
that needs to be taken is to start being more frank with your 
populations. This is a problem that needs to be solved, and the way to 
solve it will require giving up ``something.'' You don't even 
necessarily need to detail what that ``something'' is. But some days 
you look at the positions coming out of Baku: ``Nagorno-Karabakh can 
have the highest autonomous status possible within Azerbaijan.'' It's 
the same as the Soviet Union. That's that status. You hear in Armenia, 
``All the conquered territories should remain Armenian. We can find 
maps that show that at some point in history they were Armenian.'' This 
isn't a way to move forward towards a negotiated political settlement. 
I can believe there's political salience in making such positions, but 
it's not helpful in crafting a solution.
    In response to the question about--I raised the incidence 
investigation mechanism and monitors. In part, I raised those because 
those were already agreed to by both presidents. There should be 
nothing simpler than agreeing to something you agreed to a year ago. 
And other CBMs, a hotline between militaries could be set up in a day. 
What argument is there that ``in extremis, in an emergency I don't want 
to be able to talk to the other side and know what's going on''? I 
don't understand that. I think these are simple steps to take.
    And I recognize--and I heard this repeatedly in Baku--there's a 
concern CBMs make the status quo more palatable, and there's truth in 
that. But the status quo being more palatable makes a better 
environment or atmosphere for a peaceful solution, and there's value in 
that. And while the co-chair countries can't force the settlement on 
the parties, and OSCE itself can't force the settlement on the parties, 
there are CBMs they can do that are independent of the parties. And I 
raised several, and I think that may be an approach that should be 
pursued: a military-to-military context between the Turks and the 
Russians; the potential intelligence sharing about the region between 
the United States and Russia. You know, that doesn't need a yes vote 
from Baku or Yerevan.
    And I want to say one other thing about the incidents investigation 
mechanism, because I'll be frank. Originally, I was opposed to this. My 
fear of this was it would lead to more death. Right now, whenever there 
are skirmishes, each side claims we've killed more than the other side. 
And I was always scared to death that if you could prove how many died, 
you may create an incentive to kill more people. And maybe we were 
better off not being able to prove it. But I think both sides are at a 
point now where--and you see these press releases every day in the 
Caucasus--158 violations yesterday, 2,760 violations last week. If 
that's going to be the news, then we should start figuring out how to 
be able to tell where they're coming from, and maybe that will deter 
the snipers that Ambassador Warlick spoke about. But as I said, even 
there, I worried about that as a CBM.
    Amb. Warlick. I'll also address this question of what is the one 
step that the sides could take that would be meaningful in resolving 
the conflict. It's just not sufficient for the two presidents to meet 
once a year or once every two years. We're not going to make progress 
towards a settlement without greater engagement by the presidents and 
structured negotiations. And if I can recommend, we need that kind of 
process of sustained diplomacy to make progress towards a negotiated 
settlement.
    Mr. Tiersky. I think it's a measure of the extraordinary quality of 
the panelists we had today that all of you remain here despite the fact 
that we've now long run out of time. Please join me in thanking the 
panel in a traditional manner. I would also like to thank my colleagues 
who helped me organize this, and in particular my colleague Everett 
Price who could not be here with us today, but hopefully he's watching 
on Facebook.
    Ladies and gentlemen, this concludes our briefing. Thank you all 
for your 
participation.
    [Whereupon, at 3:47 p.m., the briefing ended.]
 






  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
